               DEPARTMENT OF HEALTH& HUMAN SERVICES

                                                                 Office of Inspector General




                                                                 Memorandum
               “MAY 261993
             Bryan B. Mitchell

                                A
             Principal Deputy Inspec  &&

                                     or General
                                           ..

                                 7
 Report:

             OIG Management Advisory
             OEI-05-92-01031                 “Intraocular Lens
 Costs,”


             See Addressees Below


             The purpose of this report is to provide you with preliminary

             information on the costs of intraocular lens (IOL) implants

             used in cataract surgery.

             Background


            In March 1986, the Office of Inspector General issued a report

            describing costs and trends in cataract surgery.

            the average list price for an IOL was $325.       We found that

                                                         However, we
that

            found that purchasers of IOLS seldom paid list price and also
            discounts were not passed on to the Medicare program, resulting

            in Medicare paying double or triple the actual purchase price   ~

            for IOLS.

                                                 .
             The 1986 report also determined that U.S. manufactured IOLS

            were readily available for under $200 in Canada.

                                                               The
             lenses sold in England and other European countries forsame

                                                                      $125 or

            less. A subsequent report,
                                         issued
            IOLS were available in the U.S.     in 1990, below
                                             marketplace documented
                                                               $200.
that

            reports concluded that Medicare reimbursement policies     Both

            encouraged inflated prices for IOLS.

            addressed this issue by recommending aThe  first cap
                                                    national report

                                                                 be

            established for IOL reimbursement.

            reconended that cap be lowered to aThe   second
                                                  flat      report

                                                       rate of $150 per IOL.


        Currently, Medicare pays a flat fee of $200 per IOL to

        ambulatory surgical centers (ASC).
        departments are reimbursed accordingHospital outpatient

                                             to a blended formula which

        uses 58 percent of the ASC rate and 42 percent of hospital

        costs . Medicare payment for an IOL implanted in a physician’s

        office is based on the reasonable charge which may not exceed

        the actual acquisition cost for the lens plUS Up to a 5 percent

        handling fee.


        We are now conducting a study to provide the latest information

        on IOL costs and other matters related to cataract surgery. We

        drew a random sample of 361 Medicare patients who had cataract

        surgery during calendar year 1991, the latest year for which

        full data was available.

                                  We contacted the ophthalmic surgeon

        and the hospital outpatient department (OPD) or ASC, where the





——.   ..=
                                                                      --

  Page 2 - See Addressees Below

  procedure was performed, to obtain information on IOL
  acquisition costs. We now have information on IOL costs for 82
  percent of the beneficiaries in our sample.                    ..
  Preliminary Findings

  According to IOL purchasers, ASCS are currently paying about
  $126, or $74 less than the $200 reimbursement they receive from
  Medicare. The OPDS, on the other hand, pay $215, an average of
  $89 more than ASCS for each lens purchased. The reason for
  this difference in acquisition costs has little to do with the
  type of lens purchased. Rather, it appears to be related to
  stronger incentives present for ASCS to reduce their
  acquisition costs.

  For the same type of IOL, acquisition costs across all
  purchasers vary significantly. For example, acquisition costs
  for one model of IOL ranged from $97 to $375. Among the
  factors that may affect acquisition costs are Medicare
. reimbursement, volume commitments, financial arrangements, and
  related products included with the IOL.
  Approximately 35 percent of the cataract procedures for which
  we now have information were performed in ASCS. Physicians
  performing surgery at ASCS reported little or no difficulty in
  obtaining a particular IOL model despite efforts by ASCS to
  limit the number of sources from whom they buy IOLS and other
  cataract related supplies. Sixty-five percent of the cataract
  procedures were performed by OPDS.
  Preliminary   Conclusions

  Based on these preliminary results, we believe that it may be
  reasonable to reduce the $2c)oflat fee currently paid for IOLS
  in ASCS. It is also important to reexamine Medicare~s method
  for reimbursing OPDS for the IOLS they obtain.

 It appears that Medicare policy establishing a fixed
 reimbursement rate of $200 to cover the cost of procuring an
 IOL has provided incentives to ASCS to be prudent buyers.
 Indeed, ASCS have been able to negotiate favorable acquisition
 costs that could allow Medicare to reduce its costs further.
 On the other hand, while our analysis is not complete, we
 believe that we have sufficient information on the cost of
 procuring IOLS to establish that Medicareas current payment
 method for OPDS provides little incentive for hospitals to
 control their IOL acquisition costs. This payment method
 enables OPDS to pass inflated IOL costs on to Medicare.
 Manufacturers know this and, not surprisingly, tend to charge
 OPDS more for their IOLS than ASCS.
                                                                r



Page 3 - See Addressees Below

AS we continue our analysis and formulate our findings and
recommendations, we welcome any co~ents or thoughts on this
preliminary information. If you have any questions or         ...
comments, please feel free to call me or Michael Mangano,
Deputy Inspector General for Evaluation and Inspections, or
have your staff contact Penny Thompson at 410-966-3138.
Addressees:

William Toby, Jr.
Acting Administrator
Health Care Financing Administration
Elizabeth M. James
Acting Assistant Secretary for
  Management and Budget
Toni C. Davenport
Acting Assistant Secretary
  for Legislation
Gerald H. Britten
Acting Assistant Secretary for
  Planning and Evaluation
